YANG MEI

v.

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 324
September Term, 2019

*

MAYOR AND CITY COUNCIL OF
BALTIMORE CITY

*

(No. 24-C-l9-002941, Circuit
Court for Baltimore City)

ORDER
Upon consideration of the petition for a writ of certiorari to the Circuit Court for
Baltimore City and the supplement filed thereto, in the above entitled case, it is

ORDERED, by the Court of Appeals of Maryland, that the petition and the
supplement be, and they are hereby, denied as there has been no showing that review by certiorari
is desirable and in the public interest.

/s/ Mary Eilen Barbera
Chief Judge

DATE: January 24,2020

IN THE

YANG MEI
*

COURT OF APPEALS
OF MARYLAND

v.

Petition Docket No. 324
September Term, 2019
*

MAYOR AND CITY COUNCIL OF BALTIMORE*

(No. 24-C-19-002941, Circuit
Court for Baltimore City)

ORDER
Upon consideration of the "Motion for Reconsideration of Denial of Petition for
the Writ of Certiorari and the Supplement" filed in the above-captioned case, it is

ORDERED, by the Court of Appeals of Maryland, that the above pleading be* and
it is hereby, DENIED.

Is/ Mary Ellen Barbera
Chief Judge

DATE: March 27, 2020

YANG MEI

A

IN THE

*

CIRCUIT COURT

v.

*

FOR

MAYOR AND CITY COUNSEL,
OF BALTIMORE,

*

BALTIMORE CITY, PART 23

Defen dant/Appellan t,

Plaintiff/Appeltee.
*

*

Case No.: 24-C-19-002941

*

*

*

*

*

*

*

*

4:

ORDER
Upon consideration of Yang Mei’s (“Appellant”) Memorandum (docket #00006000),
filed June 13, 2019, Maj or and City Council of Baltimore’s (“Appellee”) Response to
Appellant’s Memorandum in Opposition to the Decision of the District Court (docket

I

#00007000), filed July 8,2019, the arguments presented at the hearing held on July 25,2019,
wherein Appellant appeared pro se and Appellee Was represented by counsel, the contents of the
record herein, and for the reasons stated in the Memorandum Opinion issued on even date, it is
this

_ day of August, 2019, by the Circuit Court for Baltimore City, Part 23, hereby
ORDERED that the judgment of the District Court of Maryland for Baltimore City- be,

and the same is, hereby AFFIRMED; and it is further
ORDERED that all outstanding court costs of the appeal shall be paid by Appellant.

i

AUDREY J.S. CARRION
Part 23

,

'

JiTlas’s Signature appears on the original document
Judge Audrey J.S. Carrion
Case No.: 24-C-l9-002941

/

CC:
tL4

—-

„

»

1

TEST

s-\

\
«

u

jf

1o

*

YANG MEI,

IN THE

i

*

CIRCUIT COURT

v.

*

FOR

MAYOR AND CITY COUNSEL
OF BALTIMORE,

•x

BALTIMORE CITY, PART 23

Defendant/Appellant,

Plaintiff/Appellee,
*

*

*

*

*

Case No.: 24-C-l9-002941

*

*

*

★

MEMORANDUM OPINION
This is an appeal on the record from the April 24. 2019 judgment of the District Court of
Maryland for Baltimore City (“District Court’5), in favor of Mayor and City Council of Baltimore
("Appellee") and against Yang Mei (“Appellant”). Record (“R.”) at 22. For the reasons
elaborated herein, the judgement of the District Court is hereby AFFIRMED.

I. FACTUAL BACKGROUND & PROCEDURAL HISTORY
This matter concerns a vacant property located at 600 E. Patapsco Avenue, Baltimore,
Maryland 21225 (“the Property”)* Transcript (“Tr.”) at 4 (January 16, 2019). In 2006, Appellee.
through the Department of Housing and Community Development, issued a violation notice
#145504a)stating the Property' was a “vacant building” as definec|by~Section 116.4^of the
Building. Fire and Related Codes of Baltimore City (“the Violation”). TheProperty was found to
be a nuisance per se, and considered to be unsafe, a fire hazard, a threat to the health, welfare.
and safety of the general public and adjoining property owners, and unfit for human habitation or
other authorized use. R. at 32.
\

On September 4,2018, Appellee filed a Petition for Appointment of a Vacant Building
Receiver (/‘‘the Petition’')-1 R. at 33. On September 11,2017, a Show Cause Order was issued
directing Appellant to show cause why a vacant property receiver should not be appointed for the
Property. R. at 2.
A^hemuigwas held on January 16,2019, before The Honorable William M. Dunn of the
i

District Court. Appellant appeared pro se and counsel was present for*kppellee. The court heard
arguments from Appellee's counsel, and testimony from Appellant. Additionally. Appellant’s
lather and sister testified. Appellant stated that he had obtained a credit limit in the amount
necessary to rehabilitate the Property, However, Appellant did not provide a contractor’s scope
of work or timeline. Tr, at 6 (January 16, 2019), The matter was postponed to allow Appellant
time to obtain a use and occupancy permit and he was informed that it would be the last
postponement. Tr. at 7 (January' 16,2019).
A final hearing was held on April 24,2019, before The Honorable Geoffrey Hengerer of
the District Court. Appellant provided the court with an unfinished application for the Baltimore
City LIGHT2 Program/’ Tr. at 4 (April 24,2019). Additionally. Appellant did not obtain a use
and occupancy permit and failed to demonstrate any improvement to the property. Id. at 4,6. The
court appointed the Casey Group, LTD as the receiver of the Properly. Id. at 8.
Appellant timely filed an appeal on April 24,2019. (docket #00001000.) On April 22,
2019, Appellant filed his Memorandum, (docket #00006000). On June 8,2019, Appellee filed its
Response to Appellant’s Memorandum in Opposition to the Decision of the District Court.
(docket #00007000).

‘ Between 2006 through 2019, there were several hearings and postponements to allow Appellant the opportunity to
rehabilitate the Property.
’ Standards for “Leading Innovation for a Green and Healthy Tomorrow."
■’ LIGHT Program case coordinators conduct assessments for home rehabilitation.
2

II. ANALYSIS
A. Scope of Review on District Court Appeal.
The Circuit Court has a narrow scope of review from an appeal of the District Court.
This Court reviews the case on the law and the evidence. Md. Rule 7-113(f). It should set aside
the District Court judgment on the evidence only if the factual determinations of the District
('our* are clearly erroneous: the Circuit Court must give due regard to the unique opportunity of
the District Court judge to access the credibility of the witnesses. Id. See also Ryan v. Thurston,
276 Md. 390. 392 (1975).
^Theappellate_court must consider the evidence produced at the DisgjgtCourt^l in the
light most favorable to the prevailing party below, and if substantial evidence was presented to
support the District Court’s determination, it is not clearly erroneous and cannot be disturbed on
appeal. See Ryan, 276 Md. at 392 (citing Delmarva Drill Co. v. Tuckahoe, 268 Md. 417 (1973)).
The appellate court must accept and be bound by the findings of fact of the low er court unless
they are clearly erroneous and must not substitute its own judgment for that of the trial court on
findings of fact. Id. (citing Harford Sod Co. v. Randall Dev. Corp., 264 Md. 214 (1972)).
The clearly erroneous standard, however, does not apply to the legal determinations of
the District Court, which enjoy no presumption of correctness on review. The Circuit Court
must apply the law as it understands it. See Rohrbaugh v. Estate ofStern, 305 Md. 443 (1986).
B. Substantial Evidence ivas Presented to Support the District Court’s
Determination.
Section 121 of the Building, Fire and Related Codes applies to a vacant structure that^
found to be unsafe or unfit for human habitation. “The Building Official may petition the court
for appointment of a receiver to rehabilitate a vacate property, to demolish it, or to sell it to a
!

qualified buyer." § 121.1. "If no qualified person with an ownership interest requests
appointment to rehabilitate or demolish the property, or if an appointee is dismissed., the court
must then appoint a receiver of the property for the purpose of rehabilitation and managing the
property, demolishing the property, or selling it to a qualified buyer.53 The owner of the property
may abate the violation by rehabilitating it. R. at 9.
At the hearing held on January 16,2019, the District Court postponed the matter and
ordered Appellant to obtain a use and occupancy permit. Tr. at 7 (January 16.2019). At the
hearing held on April 24,2019, Appellant did not present any evidence documenting a use and
occupancy permit had been obtained. Further, he provided the court with an incomplete
application for the Baltimore City LIGHT Program. Tr. at 6 (April 24,2019). The District Court
specifically asked what progress was performed by Appellant to demonstrate an improvement of
the Property. Tr. at 6 (April 24, 2019). Appellant responded by requesting another postponement.
Tr. at 8 (April 24,20l9)SHae^)istrictjC^u^d^rmu^^m^)pell^Sl

ed to make

3

improvements to the Property and failed to obtain a use and occupancy permit as previously
ordered. Tr. at 8 (April 24,2019). On April 24,2019, the District Court appointed Casey Group,
LTD as a Vacant Building Receiver for the Property'. R. at 32.
The evidence before the District Court was substantial to support its ruling. As such, the
District Court’s factual findings were not clearly erroneous. This Court will not disturb the
judgment of the District Court. See Maryland Rule 7-113(f); Ryan, 276 Md. at 392; Harford Sod
Co., 264 Md. at 219, 221.

4

m.

CONCLUSION
For the foregoing reasons, the decision of the District Court awarding judgment in favor

of Appellee and against Appellant is hereby AFFIRMED.
IT IS SO ORDERED, this

day of August 2019.

AUDREY J.S. CARRION
Part 23

Judas’s Signature appears on the original document
Judge Audrey J.S. Carrion
Case No.: 24-0-19-002941
<;■

J i

Oi

T28T
.?

/

* f/

CC:
The Honorable Geoffrey Hengerer,
Edward F. Borgerding Courthouse
5S00 Wabash Avenue
Baltimore, Maryland 21215
Mr. Yang Mei, Esq.,
405 H. Patapsco Avenue,
Baltimore, Maryland 21225
Appellant. Prase
Shea Beitler-Akman. Esq..
Special Assistant Cit\ Solicitor, DHCD
417 East Fayette Street, Room 361
Baltimore, Maryland 21202
Counselfor Appellee
Sent via U.S. Mail
Case Flo.: 24-C-19-002941

5

%

nA

h,

,/c':

